1099 NEW YORK AVENUE, NW SUITE 900 WASHINGTON, DC 20001-4412

Ian Heath Gershengorn
Tel +1 202 639 6869
IGershengorn@jenner.com

August 7, 2020
VIA ECF
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Alex M. Azar II, Secretary of Health and Human Services, et al. v. Charles
Gresham, et al. and Samuel Philbrick, et al., No. 20-37
Arkansas v. Charles Gresham, et al., No. 20-38

To the Clerk of the Court:
We represent Respondents Charles Gresham, et al., and Samuel Philbrick, et al., in the cases
referenced above. Petitioners Alex M. Azar II, et al., and the State of Arkansas filed their
respective petitions for a writ of certiorari on July 13, 2020, and these matters were placed on the
docket on July 16, 2020. Respondents’ brief in opposition to the petitions is due on August 17,
2020. Pursuant to Supreme Court Rule 30.4, we submit this unopposed request for a sixty (60)
day extension of time to file a brief in opposition to the petitions in these cases.
At this point, we have received a notice pursuant to Supreme Court Rule 12.6 that the New
Hampshire Department of Health and Human Services intends to file a brief in support of the
petition for a writ of certiorari filed by Petitioners Azar et al. Because this brief need not be filed
until August 17, 2020, an extension of time is necessary to afford Respondents the opportunity to
review and respond to any assertions or argument made in the brief. We request an extension until
October 16, 2020 because counsel with principal oversight responsibility for the brief is getting
married in September and counsel of record will be preparing for a September circuit court oral
argument.
Counsel for Petitioners Azar, et al., and the State of Arkansas have stated that they do not oppose
this extension request.
For these reasons, we respectfully request a sixty (60) day extension of time, until October 16,
2020, to file a brief in opposition to the petitions.
Respectfully,
/s/ Ian Heath Gershengorn
Ian Heath Gershengorn
cc: All counsel of record (via email)

CHICAGO

LONDON

LOS ANGELES

NEW YORK

W ASHINGTON, DC

WWW.JENNER.COM

